                            TESTIMONY OF

                         MICHAEL CARROLL,

                   ACTING INSPECTOR GENERAL,

        U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                             BEFORE THE

 SUBCOMMITTEE ON NATIONAL SECURITY, HOMELAND DEFENSE,
            AND FOREIGN OPERATIONS OF THE
 HOUSE COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM



             “OVERSIGHT IN IRAQ AND AFGHANISTAN:
                 CHALLENGES AND SOLUTIONS”


                          DECEMBER 7, 2011




      Chairman Chaffetz and Ranking Member Tierney, I am pleased to

appear before you to testify on behalf of the Office of Inspector General

(OIG) for the U.S. Agency for International Development (USAID). Today,

I would like to share information about our oversight efforts in Iraq and
Afghanistan and what can be done to continue to enhance oversight in the

future.

          USAID OIG Oversight Efforts in Iraq and Afghanistan


      At USAID OIG, we continuously adapt our oversight approach to

changes in the risk profile and strategic priority of international development

activities. Accordingly, as USAID began to engage in Iraq following the fall

of Saddam Hussein’s regime, we geared up our oversight activities. In 2003,

while USAID was establishing assistance programs and operations amidst

rapidly increasing expenditures, we began deploying personnel to Iraq on

continuous temporary duty assignments. By June of the following year, we

had formally established an office in-country.       For a number of years

thereafter, we maintained a staff of nine U.S. direct-hire auditors and

investigators in Baghdad to provide concentrated, on-the-ground oversight

that we supplemented with the efforts of our Washington-based personnel.

Prompted by USAID program reductions in Iraq, however, we have begun to

scale back our presence there to our present level of six U.S. direct hire

personnel. We plan to continue to reduce the size of our Iraq office to four

staff by the end of this fiscal year and will support their efforts with audit

and investigative resources based in Cairo.



                                     -2-
      While USAID’s engagement in Iraq slowed, its programs and

activities in Afghanistan increased and remain robust today. To address the

risks attendant on Agency efforts there, we initially provided oversight from

our regional office in the Philippines and headquarters in Washington. After

the Afghanistan oversight responsibilities of our Manila office had grown to

absorb the work of more than eight audit staff a year, we opened a country

office in Kabul. That office has now expanded to include 11 U.S. citizen

auditors and investigators and 6 Foreign Service National personnel.

      With OIG staff and resource surges in Afghanistan and Iraq came

more intensive oversight. Drawing on a strong in-country presence in both

nations, we were able to provide comprehensive performance and financial

audit coverage of USAID programs and implement a vigorous investigative

program. From fiscal year 2003 to 2011, we issued 103 performance audits

and reviews related to USAID activities in Afghanistan and Iraq.         The

resulting reports provided Agency managers with sober, even-handed

assessments of their programs and more than 400 concrete recommendations

for ways to improve them, in addition to identifying $95 million in

questioned costs and funds recommended to be put to better use.

Meanwhile, we supervised program-specific financial audits of $5.7 billion

that led us to question $350 million in USAID expenditures. Over that span,


                                    -3-
we also opened 258 investigations, 71 of which have been referred for

prosecution. By the end of FY 2011, our investigative work had produced

24 indictments,   19 convictions,   123 administrative    actions   (such   as

employee terminations and contract cancellations), and more than

$285 million in savings and recoveries.

      In addition to stepping up these core oversight activities, we have

made other adjustments in response to the heightened risk environment in

these countries. To spur greater awareness of fraud indicators, help mitigate

risks, and increase knowledge of reporting requirements, we pursued an

aggressive fraud awareness campaign, delivering more than 150 briefings in

Afghanistan and Iraq to approximately 3,000 representatives of contractors

and grantees, host government officials, and federal procurement and project

management personnel.

      We have also applied concentrated scrutiny to the aspects of

assistance programs at greatest risk. We redoubled our monitoring of cash

disbursements and examined core financial system components, exposing

the failed development of a key financial information system for the Iraqi

Government and deficiencies in oversight of bank supervision assistance

activities that might have helped contain losses resulting from the collapse of

Kabul Bank. We intensively examined security support for development


                                     -4-
programs, reporting on the cost burden of these efforts, uncovering fraud on

the part of U.S. based security firms operating in Afghanistan, and

identifying indications of protection payments to insurgents. To address the

increased risks of assistance channeled directly through the Afghan

Government, we recommended improvements to ministerial assessments to

increase their ability to detect and respond to significant control weaknesses

before awards are made, and noted serious quality and sustainability

deficiencies in health programs funded through an Afghan ministry.

      Because most of USAID’s development programs are implemented by

external recipients, we have also expanded efforts to ensure that individuals

and firms that are not presently responsible do not continue to receive

U.S. Government grants and contracts. We have been working closely with

Agency suspension and debarment officials to apply these tools in all

appropriate cases. As a result of this collaboration, USAID has substantially

increased its use of suspension and debarment and currently has 71 such

exclusions in effect. Of this total, 72 percent stem from OIG investigations

in Afghanistan and Iraq.

      Last year, we presented USAID officials with evidence of serious

corporate misconduct, mismanagement, and a lack of internal controls on the

part of one of its largest funding recipients, the Academy for Educational


                                    -5-
Development (AED).        In response, the Agency terminated the firm’s

contracts in Afghanistan and Pakistan and took the extraordinary step of

suspending it from future federal procurements.          This significant step

followed on a settlement with another major firm in November 2010. After

years of investigative work, OIG established that high-level Louis Berger

Group (LBG) employees had conspired to charge the U.S. Government

falsely inflated overhead costs in Iraq and Afghanistan. Confronted with our

evidence, LBG entered into an agreement with the Department of Justice to

settle related civil and criminal charges and pay the U.S. Government

$69.3 million in settlement charges, penalties, and restitution.

      These events have helped reset the accountability environment in

foreign assistance.    We have capitalized on this new momentum by

increasing our engagement with implementing partners. We are intensifying

outreach efforts and reinforcing opportunities for fraud reporting while

emphasizing implementing partners’ Federal Acquisition Regulation

reporting requirements to the OIGs.        We aggressively pursue all major

investigative leads and carefully monitor contractors’ and grantees’ internal

investigations of small scale allegations to ensure that they are conducted in

a thorough but expeditious manner.          When our investigations reveal




                                     -6-
evidence of criminal or civil violations, we work closely with both U.S. and

local prosecutors to bring subjects to justice.


                Combatting Fraud and Waste in the Future

      The Commission on Wartime Contracting recently recommended the

establishment of a Special Inspector General for Overseas Contingency

Operations (SIGOCO). Because the establishment of such an organization

could have significant cost and operational implications, we believe that this

proposal should be submitted to careful examination.

      To this end, it is helpful to first consider the history of Special

Inspectors General in the international arena.       The Special Inspectors

General trace their origins to the Coalition Provisional Authority (CPA) in

Iraq. Established as a caretaker government until a civilian government

could be formed, U.S. Government officials served as Administrators for the

CPA and it received its operating budget from the U.S. Congress. Given

these facts, Congress endowed the CPA with an oversight apparatus similar

to that of a cabinet-level agency within the U.S. Government and established

an Inspector General (IG) to oversee this discrete unit of government.

      By the time a CPA IG was appointed, USAID OIG had already begun

operating in-country.    More USAID and CPA OIG personnel followed

shortly thereafter, and Congress appreciated the hands-on engagement that
                                      -7-
our organizations provided. Consequently, when plans for the dissolution of

the CPA moved forward in 2004, Congress determined to keep CPA OIG’s

oversight presence on the ground.      Rechristened the Special Inspector

General for Iraq Reconstruction (SIGIR), the CPA OIG received a modified

mandate to oversee programs and operations associated with the Iraq Relief

and Reconstruction Fund.

      The history of oversight in Afghanistan stands in stark contrast to the

oversight experience in Iraq. We started reporting on assistance efforts in

Afghanistan in early 2003 and all of the other statutory inspectors general

had solid oversight programs in place prior to the Special Inspector General

for Afghanistan Reconstruction’s (SIGAR’s) establishment. In fact, almost

a full year before SIGAR came into being, we were actively engaged in an

Afghanistan Working Group with representatives of the Government

Accountability Office (GAO) and the State and Defense OIGs.                This

working   group    developed   a   strategic   approach   to   oversight     of

U.S. Government activities in Afghanistan and worked to coordinate

oversight plans and activities among the offices so that it could provide a

comprehensive, objective perspective on U.S. Government efforts there.

      Because our organizations already had well-established, coordinated

programs and activities in Afghanistan, SIGAR did not have a natural niche


                                    -8-
to fill. Confronted with a challenging operating environment and oversight

of such a wide array of programs, it initially had difficulty meeting

recognized standards for audits and investigations and duplicated the work

of others.

      The prospects of a successful civil-military campaign in Afghanistan

have not been improved by multilayered reporting requirements and

oversight institutions. Rather, in our judgment, the resulting intensified need

for coordination and deconfliction has diverted valuable time from audit and

investigative work and program management tasks. With these observations

in mind, it is reasonable for taxpayers to question whether the generous

support they provided for an additional oversight body in Afghanistan would

have been better invested in the agency-specific inspectors general already

operating in-country.

      We believe that a move to form a Special Inspector General for

Overseas Contingency Operations would only serve to reprise past mistakes.

Rather than addressing a gap in oversight coverage, such an organization

would serve an entirely redundant function. Existing statutory inspectors

general already have oversight authority over the full scope of

U.S. Government activities in current contingency settings and GAO

provides an overarching view of multiagency initiatives.


                                     -9-
      Moreover, a SIGOCO would not bring any new tools or capability to

oversight efforts. The inspectors general for USAID, State, and Defense

have all developed capabilities to operate and perform in contingency

environments. Indeed, oversight in contingency settings is and has been a

core feature of our work for many years. About one in every five of our

performance audits and reviews last year related to Afghanistan and Iraq,

and approximately a third of our current investigations stem from allegations

in those countries.   In fact, Afghanistan and Iraq are only two of the

countries where we have mobilized in response to disasters, conflicts,

uprisings, and humanitarian crises. We have offices in eight other locations

around the world including Egypt, Haiti, and Pakistan, and routinely perform

oversight work in Sudan. We are always prepared to deploy our experienced

Foreign Service auditors and investigators to the next contingency. We

supplement their work with the efforts of reemployed annuitants that we

retain using the enhanced personnel authorities that Congress has

temporarily granted our organization.

      Agency inspectors general also have a strong track record of working

together to ensure comprehensive oversight of multiagency matters. OIGs

routinely participate in joint investigations and frequently conduct joint

audits and reviews of interagency programs and activities.       In order to


                                   - 10 -
promote the early detection, prevention, and prosecution of procurement and

grant fraud, for example, our office actively participates in the National

Procurement Fraud Task Force and International Contract Corruption Task

Force along with other law enforcement counterparts.          At Congress’s

direction, inspectors general across the government came together to provide

oversight of stimulus spending and established the Recovery Operations

Center to help coordinate and focus investigative work and leads across

offices.   Similarly, following Hurricane Katrina, the inspector general

community rallied to provide coordinated oversight across 13 federal

departments and agencies.        In international settings, OIGs develop

coordinated annual oversight plans for Southwest Asia and for HIV/AIDS,

malaria, and tuberculosis programs.      And with respect to Pakistan, we

coordinate the preparation of a quarterly report with the State and Defense

OIGs on the progress of the civilian assistance program and related oversight

plans and activities. These arrangements work well because each of the

participating organizations has clearly distinguishable lines of authority and

accountability for oversight of a specific agency or department.

      Provided adequate funding and authorities, agency-specific inspectors

general can respond effectively to future contingency operations in our

respective areas of responsibility and provide necessary oversight. We have


                                    - 11 -
unmatched knowledge of and experience working with the organizations that

we oversee and also have a deeply ingrained institutional understanding of

past management challenges and lessons learned from previous contingency

operations.

      Instead of improving oversight, a SIGOCO is likely to blur

jurisdictional lines and confuse Agency counterparts and implementing

partners about reporting procedures and lines of authority. By needlessly

adding a layer of bureaucracy, a SIGOCO will contribute to inefficiencies

and distract program staff from key management and monitoring functions

by adding to their already extensive reporting requirements.

      Finally, it is worth considering the opportunity cost of diverting scarce

financial resources to the establishment and maintenance of a new

bureaucratic entity. If more oversight is the aim, then we submit that there

has been no better investment in international assistance oversight than with

us. Our office has provided oversight in Afghanistan and Iraq for more than

9 years for significantly less money than has been appropriated to the

Special Inspectors General in a single year. For every dollar taxpayers have

entrusted to our office in these settings, we have returned more than $11 in

the form of sustained questioned costs and investigative savings and

recoveries.


                                    - 12 -
         Many have been struck by the Commission on Wartime Contracting’s

estimate of $31 to $60 billion in waste and fraud in Afghanistan and Iraq.

Confronted with figures of this magnitude, the temptation is to respond by

vastly expanding or reconfiguring oversight of U.S. Government activities in

these countries.     While we believe that the commitment of additional

resources to oversight would yield reductions in fraud and waste, we believe

that specific, targeted program interventions could also produce significant

gains.

         As an oversight entity, we strive to identify corrective actions for

remedying management and performance issues as soon as possible, and our

recommendations help save millions of dollars a year.        However, more

effective planning and implementation of program efforts by the agencies

operating in these areas could help reduce more waste upfront.         Better

application of program management principles would help ensure that

stabilization and development interventions support intended goals.

Assigning greater priority to project monitoring and evaluation could help

Agency managers identify problem areas sooner.            The training and

deployment of additional contract and procurement personnel could improve

choices about procurement mechanisms and help increase contractor

compliance with the terms of their agreements.        Finally, programs and


                                     - 13 -
initiatives to strengthen the independence and professionalism of host

country law enforcement, prosecutors, and courts, and reinforce the role of

indigenous oversight institutions could improve the overall operating

environment for our assistance programs.

      It is our belief that establishing a SIGOCO would not be an effective

use of resources and that better options are available for reducing fraud and

waste in contingency environments.           If Congress and the President,

nevertheless, determine to form such an entity, we would build on our long

legacy of collaboration and work with it to advance our shared goals of

reducing fraud, waste, and abuse and improving the economy, efficiency,

and integrity of U.S. Government programs and activities.

      Finally, at a recent hearing before this Committee, former members of

the Commission on Wartime Contracting suggested that the statutory

inspectors general charged with oversight of contingency operations were

not sufficiently independent from the agencies they oversee. We strongly

disagree with this characterization.         While it was in operation, the

Commission never expressed any concern regarding the integrity or quality

of our work. Now that its mandate has ended and the Commission has been

dissolved, we believe that it is inappropriate to make such claims at hearings

intended to present the Commission’s conclusions.


                                    - 14 -
        I can assure you that during the full course of my 10-year tenure with

USAID OIG, nobody has ever presented any facts to suggest that we have

provided anything less than the most vigorous, independent oversight in

contingency environments. USAID OIG has a robust culture of integrity and

we maintain the highest standards of independence in planning and

executing our work. We have always assiduously pursued oversight of the

agencies that we oversee and have never curtailed any oversight activities to

foster better relations with any outside office or agency. We are proud of

our tradition of fairness and objectivity, and our personnel, many of whom

risk their lives in conflict settings, demonstrate their profound commitment

to these values every day.

        Thank you for this opportunity to address the Subcommittee.

We appreciate your interest in our work and your continuing commitment to

effective oversight. I look forward to learning more about your interests and

priorities and would be happy to answer any questions you may have at this

time.




                                     - 15 -
